                                                          NATIONAL, SCIENCE FOUNDATION
                                                           OFFICE OF INSPECTOR GENERAL
                                                             OFFICE OF INVESTIGATIONS

                                                    CLOSEOUT NIEMORANDUM
                                                            ..
Case Number: A-05020004                                                                                    Page 1 of 2




           We received an allegation that the subject's'^^^ award proposal (propos'al 1) contained text
           plagiarized fhrn an earlier NSF award? The University's investigation determined that the
           subject plagiarized text in proposal 1, as well as in another NSF proposal (proposal 2): The
           University's investigation also determined that the subject plagiarized in proposal 1, desp.itethe
           fact that he received two separate warnings fiom colleagues that his draft of proposal 1 contained
        . plagiarized text. The committee determined that the subject acted recklessly when he
          plagiarized text into his NSF proposals. The University returned the awarded funds to NSF,
          ,reprimandedthe subject, prohibited him fhrn submitting proposals from the institution,for about
           14
            ! years, and reqbired him to take ethics training.

         .We.det&ned that the subject committed plagiarism in both instances. However, we strongly
         disagreed that the subject acted recklessly. We concluded that the subject acted knowingly given
         his extensive academic background Further, the subject did not heed warnings fhrn colleagues
         that the draft of proposal 1 contained inappropriately copied text. We recommended NSF 1)
         send a letter of reprimand to the kbject informirig him that NSF hss made a finding of research
         misconduct; 2) debar the subject h m receiving federal funds for a period of 2 years
         commencing on the date of NSF's finding of research miscosduct; 3) require the subject to
         certifj'that proposals he submits to NSF do not contain plagiarized, falsified, or fabricated    .

         material for three years after the debarment period; 4) require that the subject submit assurances
         by a responsible official of his employer that any proposals submitted by the subject to NSF do
         not contain plagiarized, falsified, or fabricated material for three years after the debaiment
         period; 5) prohibit the subject fiom reviewing NSF proposals for a period of two years,
         concurrent with the debarment period; a d 6) require the subject to certifj'his completion of a
         course in research ethics within one year of the final disposition'of the case. .


         'Professor Jerry J@.sinski
         2ThefUndedNSFb-,-..                .

                                                                                                            submitted by the
              subject, the'~1,
                             and by Drs.'                                              fi-om
                                                                              -4 CO-PIS,
              The actual funding of this proposal occurred at the same time as the matter was referred to the Institution for
              investigation.
                                                                                                                     - --
             Source document A:        a        a




NSF OIG Form 2 (11/02)
  NATIONAL SCIENCE FOUNDATION
   OFFICE OF INSPECTOR GENERAL
     OFFICE OF INVESTIGATIONS

CLOSEOUT MEMORANDUM
                                                                                                     :NATIONALSCIENCEFOUNDAnON
                                                                                                          .. 4201 WILSON BOULEVARD        .         .        .
                                                                                     .   .                 ARLINGTON, VIRGINIA 22230




                                                 OFFICE OF THE
                                                D E P DIRECTOR'
                                                        ~




                                                                                                                                                                  .
                                             CERTIFIED MAIL -RETURN RECEIPT REQUESTED
                                                                                                                                                                              .
                                                                                                                                      '       -,.       .         '   .           '

                                                                                             .   .                                                          . .

                                             Di..jerry P. Jasinski           .                                                    .       .




    .           .               -.-                  .....     .
                                                                                                                                             . . Scienq
                                                 ~




                                                             Re:   NO&    of ~ r o ~ ~ ~s eeb.d.a r.r n k tand Notice . bf ~ i s c q n d u d,in  . .
.   .                                                              Determination
                    .       .                                                                                           . .
                                                                                                                                                                          .           ...   .                .   -.. .
                                             Dear Dr. Jasinski:          ,   .


                                         -   On or about ,                       -   - .     , you submitted a.proposal to thc~atidnal~ c i e h c~b&diition"
                                                                                                                                                 e
                    .                 .      ('%SF') entitled " _'   .                               -.           -    .

                                                                                                       -     -. ~s'do~umented
                                                                                                             .                   in the attached Investigative-.
                                                                                                                                                             . .
                        :                    Report                 by N S F S O ~ ~of~Inspector
                                                                                        ;~       General ("OIG"), this prqposal ?ontained
                                                                                                                                  .  .                                                          ..       .         .
                                - .. ,plagiarized.text.

        .           .
                                         . In .light of your misconduct, this letter serves as formal notice that NSF is proposing to debar you
        .   '   .                .      from directly or indirectly obtaining 'the benefits of Federal.grapts for a period of two years.
            .                   ,    .  During your paiod of debarment, you will be precluded fiom receiving Federal financial and .                                                                                     ,




    .           .                       non-fmancial assistance and benefits under non-procurement Federal programs and activities.
        ..                  .       . .,See45 CFR Part 620, Subparts A, B and .I. .In addition, you .will be prohibited from receiving any,
                        -             . Federal contracts or approved subcontracts under the Federal Acquisition Regulations ("FAR").

                .                       See 45 CFR 620.125. During your debarment period, you also will'be barred from having
                                        supervisory responsibility, pfimary management, substantive control over, or critical influence
                                        on, a grant, contract, or cooperative agreement with any agency of the~xecutiveBranch of the                                                                 L




            .           .               Federal Government. See 45 CFR 620.1 15;.

                                             In addition to proposing your debarment, I am requiring that you submit certifications and
                                             assurances in conjunction with any proposal submitted to NSF for three years after the debarment
                                             period expires. I am also prohibiting you from serving as an NSF reviewer, advisor, or
                        .                    consultant,untilDecember 31,2008. Lastly, you must complete an ethics training course on
                                             plagiarism by December 3 1,2007, and certify in writing to the OIGthat you have done so, before
                                             you will be permitted to submit any further grant proposals for Federal funding.
                                                                 .   .                                              Page 2
                    Scieritijc Misiogdud and Actions. other thaii~ebannent
                                                     .                               .   .

                                              .. .                                                        .   . .
                    Under NSFysregulations, "research misconductyyis defined as "fabri~ation;falsification,or'
                    plagiarism in proposing or performing research funded by NSF ..." 45 CFR fj689.1ta)a):NSF
        .           defines 'plagiarismyyas "the appropriation of another person's ideas.;processes, results of words
.   .
                    without giving appropriate credit." 45 CFR .$689.1(a)(3). findi in^ of research .misconduct
                                                                                                        .

            .   .
                    requires that:                                                                             .    .




                          -   (1)   There be a significant departure from accepted practices of the relevant reseqch
                      .   . .       community; and                                                   -.
                          '(2)      The research misconductbe committed inte~tionally,or kn6wingly, or reddessly;
                                                                                                              -
                                                                                                                .. . . ..
                                                                                                              .
                                                                                                          - .                ..
                                    and
                              (3)   The allegation be proven by a preponderance of evidence. .        .




                    45 CFR 4 689.2(c).    .

                    In your proposal, you copied text fiom a proposal previously submitted to NSF without providing
                    proper attribution for such material. By submitting proposals to NSF that copy the ideas or
                    words of another without adequate attribution, as described in the OIG Investigative Report, you
                    misrepresented someone else's work as your own. Your conduct unquestionably constitutes
                    plagiarism. I therefore conclude that your actions meet the delinition of "research misconduct"
                    set forth in NSF's regulations.
        .           Pursuant to NSF regulations, the Foundation must also determine whether to make afinding of
                    misconduct based on a preponderance of the evidence. 45 CFR 689.2{c). After reuiewing the
                    Investigative Report and the College's Panel Report, NSF has determined that, based on a
                    preponderance of the evidence, your misconduct was bowing and constituted a significant       ,
                    departure from accepted practices of the relevant resemh community. 1 am, therefoe, issuing a
                    finding of research misconduct against you.

                    NSF's regulations establish three categories of actions (Group I, 11, and m)that can be taken in
                    response to a finding of misconduct. 45 CFR §689.3(a). Group I actions include issuing a letter
                    of reprimand; conditioning awards on prior approval of particular activities from NSF; requiring
                    that an institution or individual obtain special prior approval of particular activities from NSF;
                    and requiring that an institutional representativecertify as to the accuracy of reports w
                    certifications of compliance with particular requirements. 45 CFR §689.3(a)(l). Group ii
                    actions include award suspension or restrictions on designated activities or expenditures;
                    requiring special reviews of requests for hnding; and requiring correction to the research record.
                    45 CFR §689.3(a)(2). Group III actions include suspension or termination of awatds;
                    prohibitions on participation as NSF reviewers, advisors or consultants; and debarment or
                    suspension from participation in NSF programs. 45 CFR 4 689.3(a)(3).

                    In determining the severity of the sanction to impose for research misconduct, I have considered -.
                    the seriousness of the misconduct; our determination that it.was.knowing;the determination that
                                                                                                   Page 3
    it was     of a*                                                for your actioni; ind theiact
                           y o u willingness to a~cept~res~onsibilit~
    that your conduct did not have an impact on the published research record. I have also
    donsidered other relevant circumstances. 45 CFR ) 689.3 (b). . .

    I find your plagiarism to be serious because the amount of text that you copied was substantial.
    Moreover, in light of the fact that you had previously submitted another proposal containing
    plagiarized text from previously awarded NSF proposals, we believe that your plagiarism is part
    of a pattern of misconduct, as opposed to an isolated incident. Lastly, despite being warned on
    two separate occasions by two separate scientists that your proposal contained plagiarized text,
    you chose to submit it without any substantive revisions. Although your conduct did not have a
    significant impaet on the research record and you cooperated fully with the investigation, the
    aggravating factors present in this case far outweigh the mitigating factors.

    I, therefore, take the following actions:

           For three years from the end of your debarment period, you are required to certify that
                                                                                                            .
           proposals or reports you submit to NSF do not contain plagiarized, falsified, or fabricated-=
           material. Such certifications should be sent to the OIG, 4201 Wilson Boulevard,
           Arlington, VA 22230.

           For three years from the end of your debarment period, you are required to submit .
           assurances by a responsible official of your employer that any proposals or reports you
           submit to NSF do not contain plagiarized, falsified, or fabricated material. Such
           assurances should be sent to the OIG.

           From the date of thislkkr through December 31,2008, you. are pmhibiied fkom serving
           -asan NSF reviewer,.advisor, or consultant.

           You are required to complete an ethics training course on plagiarism by December 31,
           2007. You must certifL in writing to the OIG that such training has been completed
           before you will be permitted to submit any fwther grant proposals for Federal funding.

                   r y for De6arinent
    ~ e ~ u i a t oBasis

.   Pursuant to 45 CFR 620.800, debarment may be imposed for:

           (b)        Violation of the terms of a public agreement or transaction so serous as to a f k t
                      the integrity of an agency program, such as -

                      (1)    A willful failure to perform in accordance with the terms of one or more
                             public agreements or transactions; or
                      ...
                  .   (3)    A willful violation of a statutory or regulatory provisipn or requirement
                                                                                                                            Page 4
                                                       .applicableto a public agreement or transaction     :   .. . -


                                 In any debarment action, the government must establish the cause for debarment by a
                                 preponderance of the evidence. 45 CFR 620.850. In this case, you knowingly plagiarized data
                                 in a grant proposal submitted to the Foundation. Thus, your actions support a cause for
                                 debarment under 45 CFR 620.800(b).

                                Length of ~ebarment
                                        .   .
                                                       .   .
                                                                                                                    . . .        ...   .
                        .         Debarment must be for a period commensurate with the seriousness of the causes upon which an
                                  individual's debarment is based. 45 CFR 620.865. ~ e n e r a l la~period
                                                                                                    ,      of debarment should not.        .

                                . exceed three years but, where circumstances warrant, a longer period may be imposed. 45 CFR
                            .
                                  620.865. Having considered the seriousness of your actions, as well as the relevant aggravating
        .
.   .

    .   :                         and mitigating.factorsset forth in 5. CFR 620.860, we a.proposing.debarmentfor a period of
                    .
        .
                                  two years.,                                                                                          .         .
                                                                                                   .
                                 Procedures GoverningProposed Debarment :
                                                                                                       -
                        .                                                                                                                            . . .
            .   .
                                                                                                                                               . .

                                 The provisions of 45 CFR Sections 620.800 through 620.855 govern debarment procedures and
                                 decision-making. Under our regulations, you have 30 days after receipt of this notice to submit,
                                 in person or in writing, or through a representative, information and argument in opposition to
                                 this debarment. 45 CFR 620.860. Comments submitted within the 30day period will receive
                                 full consideration and may lead to a revision of the recommended disposition. If NSF does not         .
                                 receive a response to this notice within the 30day period, this debarment will become final.

                                 Any response should be addressed to Lawrence Rudolph, General Counsel, National Science
                '




                                 Foundation, Office of the General Counsel, 4201 Wilson Boulevard, Room 1265, Arlington,
                                 Virginia 22230. For your information, we are attaching acopy of the Foundation's regulations
                                 on non-procurement debarment and FAR Subpart 9.4.


                                                                                      Sincerely,
                                                                                             ,'


                                                                                      Kathie Olsen
                                                                                      Deputy Dirqtor

                                 Enclosures
                                 - Investigative ~ e ~ o r t -
                                 - 45 CFR Part 689
                                 - Nonprocurement Debannent Regulations
                                 - FAR Regulations
 The Office of Inspector Genaal (OIG) gnclqdes that the sibjectl committed plagiarism in two
 NSF proposals submitted to the National Science Foundation (NSF), one of which had been
 funded. As part of an investigation, an Investigation Panel of the subject's Institution concluded
 that the subject committed research misconduct, and.that his actions demonstrated a pattern of
 plagiarism. As a result of .the Investigation Panel's conclusions, the Institution declined the
 funded NSF proposal, reprimanded the subject, prohibited him fkom submitting proposals-fkom
 the Institution through September 1,2007, and required him to take ethiqi training. OIG
 concludes that the evidence supports a finding of research misconduct, and recommends that
 NSF:

                                 send a letter of reprimand. to the subject informing him that NSF has made a .
                                 finding of research misconduct;

                                 debar the subject fiom receiving federal funds for a period of 2 years commeqcing
                             .   on the date of NSF's finding of research misconduct;

                                 require the subject to certify that .proposals he submits to NSF do not contain
                                 plagiarized, falsified, or fabricated material for 3 years after the debarment period;

            -        .   r       require that the subject submit assurarices . by. a responsible official of 'his
                                                                                                                                         .
                                 employer that any proposals sutimitted by the subject to NSF do not contain
                -.               plagiarized, falsified, or fabriMted mateiial for 3 years after the debarment period;

                                 prohibit 'the subject fiom reviewing NSF proposals for a period of 2 years,'
        .       .                concmi-ent with the debarment period;

                                 and.

                                 require the subject to certify his completion of a course in research ethics Within                 .   '



                                 one year of the final disposition of the case.
                                                                                         .   .

                                                              OIG'S Inquirv
                                                                                                                                             t


 OIG reviewed an allegation regarding an NSF funded proposal2 (Proposal 1) submitted by the PI                             ' '



 (the subject) and two co-p1s3 and determined that it contained about 95 lines of text copied fiom


     Professor Jerry Jazinski,
     The h d e d NSF proposal                                               -.
                                               -- . -- . ..   -   -.   ..- .-   .   ..
                                                                                                            'submitted
     by the subject, the PI, and by '
     Institute. The actual h d i n g of. this pmpoial occurred at 'the 'same time.as the matter was referred to the
 :   Institution for investigation.
   . At the inquiry phase, the two co-PIS on Proposal 1 well as the PI were considered to be possible subjects.
                                                                                                                                 .
 ,

     However, as a result of our inquiry, we determined the focus of the investigation should be on the PI (the subject)
. as the individual most reasonablyresponsible for the alleged plagiarism.
an earlier NSF award (source document A) submitted by another PI (Scientist 1). We wrote to
the subject and the two co-PIS on Proposal 1 concerning the seemingly copied text. Our letters to
the subject and co-PIS with attachments are included in Tab A. Their responses are included in
Tab B (subject) and Tab C (co-PIS).

The subject responded that he had not copied material from source document A,' Further, he
stated that he had not copied text in any other proposals submitted to NSF.~

The subject attempted to explain the use of the copied text as part of the construction of the
award he and his co-PIS had submitted stating that

           much of the language settled on is a direct compilation and synthesis of ideas
           from a variety of individuals including many of those mentioned above [referring,
           for example, to Scientist 11 and built on prior proposal attempts over several years
           by rewriting from a history of failed attempts. Therefore, if there are any
           perceived similarities between any language in the proposal that has been
           submitted and any other proposal, such as the [source document A] as charged in
           this letter, then it is either a coincidence or reflects the narrow window of
           .arguments that we were able to garner from conversations with all of the
           individuals mentioned above in an effort to determine those most important things
           that are necessary for a successful proposal and to make such an impact in the
           specific environment outlined in our proposal.[71

The co-PISprovided a joint response (Tab C). They stated the subject contacted them,
requesting their participation in preparing Proposal 1, which included providing a short (1 or 2
page) description of their research as well as copies of their Biosketches. The co-PIS stated they
had no knowledge of source document A. They provided a copy of what they described as the
first draft of Proposal 1, the version they used to provide comments to the subject as they assisted
in the preparation of the award (Tab C).

After reviewing the responses, we determined that there was sufficient substance to warrant an
investigation. We referred the investigation to the subject's Institution by letter dated July 22,
2005 (Tab D) to the Interim Vice President for Academic Affairs, the Institution's research
misconduct official and adjudicator.'

                                             Institution's Investigation

The'InstitutionYsInvestigation Panel (IP) Report and all associated documents from the
Institution's investigation are at Tab E.

    Source document A: .



'Tab B, answer to question 1, page 3.
    Tab B, subject's response, page 4, question 6 .
'-Tab B. subject's response, pages 2-3.
8
              The IP reviewed all evidence, including relevant email messages (Tab E, section 4) exchanged
              between the subject and two scientists, Scientist 1 and Scientist 29, whom he had asked to review
              a draft copy of Proposal 1 prior to his submitting it to NSF. Emails sent to the subject by each
              Scientist in response to his request for a review warned the subject about the verbatim text
              copied that appeared in the draft of subsequently funded Proposal 1.lo The subject's response to
              the Scientist 1's warning about the material in the draft copy of Proposal 1 was 'puzzlement."11
              Scientist 2, who had been requested to intervene in this matter of verbatim copied text by
              Scientist 1, independently warned the subject about the copied text.12 As a result of Scientist 2's
          ,   warning, the subject emailed a revised version of the draft of Proposal 1 to Scientist 2. After
              receipt of the revised version of the draft of Proposal 1, Scientist 2 sent an email to the subject
              stating that, "it [the revised version] looks ok to me."13

              The IP interviewed Scientist 2 and commented after the interview that
      .   .
                        [olne has to wonder what kind of scrutiny [Scientist 21 gave the revision,
                   --
                        particularly since h e had earlier remarked of the -apparent plagiarism "This is
                        awful" and had threatened to withdraw [his college] as a party to the proposal. [I4]

              The IP reviewed the original and revised drafts and determined that the subject's revision of the
              draft of Proposal 1 sent to Scientist 2 was not substantial. The IP concluded that

                        if [the subject] had some misgivings about or ignorance of what constitutes
 -        -             plagiarism, he had been given an imprirnature [sic] by one of two severe
 --
&-
 A



7
".




)
1 :

              In addition to its review of the apparently copied text in Proposal 1, the IP discovered the subject
              had submitted an earlier NSF proposal (declined)16(Proposal 2) that also appeared to contain a
              significant amount of copied textI7 taken from another PI'S NSF award1' (source document B,
              Tab E, Section 4). In the subject's response to the IP, he stated that aver the past 6 years he had
              been attempting to get funding for the laboratory, but had been unsuccessful. He provided the IP


               Dr.
              lo Tab E, section 4, emails sent 01/20/05 (Scientist 1) &d  01/22/05 (Scientist 2) to the subject.
              l1 Tab E, section 5, IP Report, page 2.
                 Tab E, Section 4, Scientist 2's 1/22/05 email to the subject
              "
              l2
                 Tab E, section 4, email sent 01/25/05
              l4 Tab E, section 5, IP Report, page 3
              l5 Ibid.
              l6 (The earlier proposal): NSF proposal                                                              -   .               ---
                                              " submitted by the subject as PI with Dr.
                       -  - --

              l7 Although the IP did not determine the amount of copied text found in Proposal 2, OIG's evaluation determined
                that Proposal 2 contained about 60 lines of copied text fiom source document B. This text is different than the text
                copied in Proposal 1.
              l8 Source document R .
with the examples of his research of "successful 'regional' type proposals,"19including both NSF
awards (source documents A and B). He explained he had telephone conversations with the PIS
on both these awards in his attempts 'Yo gain more in~ight."~'

Based on the evidence presented, the IP determined that the subject's actions met NSF's
definition of plagiarism by the preponderance of the evidence. It stated that the subject's
duplication of

          four pages of text from [source document A] (and e&lier from [source document
          B]) is a very serious matter insofar as it is blatant pla 'arism and "departs fiom
          accepted practices of the relevant research community.,%I

When assessing the subject's intent, the IP thought there were "attenuating circumstance^,"^^
such as the subject sending a copy of the draft Proposal 1 to Scientist 1, which
      ,    .

          suggests either :ingenuousness or ignorance: surely she would 'detect the
          similarities to her work. When she did ,and so -informed him, his response was
          perplexity.[231 . .

The IP's personal interview of the subject, combined with the conduct exhibited by the subject,
resulted in the IP concluding that the subject displayed "culpable ignorance"24in copying the
text, despite the subject's many years of teaching and research experience.25 Therefore, the IP
concluded that "the preponderance of the evidence shows [the subject] guilty of reckless research
misconduct which years of research activity and teaching should have precluded.'y26

The subject responded to the IP draft report (Tab E) by explaining that he never had been
involved "knowingly"27with plagiarism during his 27 years at the Institution; he had not
encountered it in any of his classes or any other situation. He explained that with Proposals 1
and 2 he was attempting to

          craft something that utilized some of the successll program concepts that the
          NSF would find acceptable in this regard and then applied to our situation at {the
          ~nstitution]
                     .[281


He stated that, prior to sending the draft of Proposal 1 to Scientist 1, he had no idea that the
copied text in that draft would be considered plagiarism. He felt that, in both the Proposals 1 and


l9 Tab E,section 4,subject's July 25,2005,respbnsi to IP, page 1
20 Ibid.
   Tab E,section 5,page 2
22 Tab E,section 5, page 2
23 Tab E,section 5,page 2.
24 Tab E,section 5,page 3.
25 Tab F, subject's Biosketch submitted with Proposal 1.
26 Tab E,section 5,page 4.
27 Tab E,section 5, subject's 29 November response to the IP.
28 Ibid.
                    2, the concepts from the successll proposals were applicable to the approach he wished to create
                    at the Institution. He thought what he did was only a mistake. He explained that

                                 [m]y ignorance of the specific rules of engagement, and being somewhat naive
                                 and stupid in this regard, therefore, as recognized by this investigation, leads me
                                 to express my deepest and sincerest apology to anyone and everyone touched by
                                 this proposal. It was never my intention to deceive anyone in any venue. Based
                                 on my puritanical and limited background in this arena, stupidity in not
                                 understanding and realizing the importance of crafting documents with wording
                                 acceptable to this program and with proper credits, I would ask for any
                                 consideration that may be possible to correct this unfortunate situation.r291

                    The Institution's adjudicator accepted the IP's Report (Tab E). The adjudicator discussed the
                    subject's recklessness and stated that the extensive use of exact words of another by the subject
                    "far exceeded the threshold for plagiarism."30 The adjudicator emphasized that he was "not
                    convinced that it was clear to [the subject]"31 what constituted plagiarism. As a result of the
                    Institution's finding of research misconduct associated with Proposal 1, the Institution declined
                    to accept the already funded Proposal 1, reprimanded the subject, prohibited him from
                                        E
                    submitting pro osals from the Institution through September 1,2007, and required him to take
                    ethics training.
_,     . ..
      ..        .
&L.
as         ..
           .
                                                                    OIG's ~sse&ment
i-.
t                   NSF's Research Misconduct Regulation states that a finding of misconduct requires:

e                                (1) There be a significant departure from accepted practices of the relevant
                                 research community; and (2) The research misconduct be committed
                                 intentionally, or knowingly, or recklessly; and (3) the allegation be proven by a
                                 preponderance of the evidence.r331


                    We accept the Institution's Report as accurate and complete, and we conclude the Institution
                    followed reasonable procedures in its investigation. We were impressed with the Institution's
                    thoroughness in gathering and assessing the available evidence.

                                                                          The Act

                    The subject copied verbatim sentences and sections of text, totaling more than 165 lines from
                    two sources (both sources were prior NSF awards submitted by other PIS) into two proposals
                    (Proposals 1 and 2) all without quotation marks or references. The total amount of text is
                    significant, representing about four pages of copied material. Further, the failure to reference the

                    29   Ibid.
                    30 Tab  E, adjudicator's 20 January 2006 report, page 3
                    3' Ibid
                    32 Tab E, section 6
                    33 45 CFR 8 689.2(c).
    actual sources, even after being warned prior to              of Proposal 1 that it contained
    copied text, is extremely serious. Finally, when the subject was asked initially whether he had
    plagiarized in any NSF proposals other than the award, he answered NO,"^^ which the university
    IP has shown to be untrue.
                                                            Intent

    The Institution concluded that the subject copied recklessly rather than knowingly. We strongly
    disagree. The subject: 1) has 27 years of experience as a faculty member at the In~titution;~~
    2) had 8 years experience as a high school teacher prior to joining the ~nstitution;~~  3) served as
I
    the chair of an academic department at the Institution for 6 years;384) received advanced degrees
    from U.S. instit~tions;~~ 5) has 95 peer-reviewed publications, 75 of which were written post-
    1 9 9 0 ; and
              ~ ~ 6) has been a tenured faculty member at the Institution for 23 years and a full
    professor for 16 years.41 Given his broad experience, it is inconceivable that he had no
    understanding of plagiarism.42 Further, when his experience is combined with the fact that he
    was warned about the award containing inappropriately copied text on two separate occasions by
    two different scientists (Scientists 1 and 2) prior to the submission of Proposal 1, it is
    inconceivable that, after being strongly warned, he did not, at the very least, seek to more fully
    understand the concern his colleagues expressed in their responses about the copied text to him.

    We conclude that the subject acted knowingly when he copied text from two source documents
    (proposals resulting in NSF awards by other-PIS)into his own proposals (one successful) in his
    attempts to get federal funding.




    34 The  subject was explicitly warned by two scientists, who had reviewed the draft of Proposal 1 prior to submission
       to NSF, that there were problems. Scientist 1 wrote: "I couldn't help but immediately notice that many portions
       of the proposal are essentially identical to the proposal I submitted four years ago." Later stating, "Therefore, I
       strongly advise you to at least revise those portions of the proposal to express the ideas in your own words." (See
       Tab E Section 4, Scientists 1's 1/20/05 email to the subject). Scientist 2, having verified that parts of the draft of
       Proposal 1 were identical stated: "[my institution's] contingent is asking you to rewrite these sections to avoid
       any problems with NSF and their plagiarism policy. Can you do this before submission? Otherwise, we will have
       to forgo being included on the proposal." (See, Tab E, Section 4, Scientist 2's 1/22/05 email to the subject)
    35 Tab B, subject's response question 6, page 4
    36 Tab F, subject's Biosketch submitted with Proposal 1.
    37 Ibid.
    38 Ibid.
    39 Tab F, subject's Biosketch submitted with Proposal 1 indicates he received an MST (Masters of Science
       Teaching) from the University of New Hampshire, an MNS (Masters of Natural Science) from Worcester
      Polytechnic Institute, and a Ph.D. from the University of Wyoming.
       Tab F, subject's Biosketch submitted with Proposal 1.
    4' Ibid.
    42 We note that the subject's Institution refers to plagiarism in two places: its internal "Grants Manual" (Tab G,
       Section VI,B), which contains the institutions policies and procedures for proposal submission, and its Tolicy on
       Academic Honesty" (Tab G, subtitle, 'What is Academic Honesty"), which the adjudicator indicates the subject
       cites in his course syllabi. (See, Tab E, 'Tina1 Report," p. 3). Furthermore, the subject has submitted 14 proposals
       to NSF in the last 10 years (Tab H) and thus, should be acquainted with NSF7sPolicy on Research Misconduct.
       Finally, we note that the subject took no substantial remedial steps to understand or correct the problems identified
       separately by Scientists 1 and 2 afier being warned by them prior to his submitting Proposal 1 to NSF.
                                                     Standard o f Proof

         A finding of research misconduct requires that the acts be proved by a preponderance of
         evidence. We concur with the IP Report's conclusion that the preponderance of the evidence
         showed that the subject committed research misconduct. We believe the preponderance of the
         evidence indicates that the subject copied text into Proposals 1 and 2 from NSF funded proposals
         submitted by other PIS without appropriately distinguishing this text from his own work. As a
         result, the subject successfully received funding (Proposal 1) with the use of these materials. In
         doing so, the subject significantly departed from the accepted practice of the research
         community. Since the preponderance of evidence supports the conclusion that the subject acted
         knowingly when he copied these materials, we conclude the subject committed plagiarism and
         therefore committed research misconduct.

                                   Subject S Response to OIG 's Draft Investipation Report

         We wrote to the subject on 3 July 2006 providing a copy of the draft investigation report (Tab I).
         The subject's 24 July 2006 response (Tab J) does not provide any substantive information that
         would cause us to alter the report.

                                              OIG's Recommended Deposition
-
=.   .   In deciding what actions are appropriate when making a finding of research misconduct, NSF
         must consider several factors. These factors include how serious the misconduct was; whether it
         was an isolated event or part of a pattern; its impact on the research record; and other relevant
         circum~tances.~~



         As we noted above, we concluded the preponderance of evidence supports the conclusion that
         the subject acted knowingly when he plagiarized materials into two separate proposals submitted
         several years apart, a significant departure from the accepted practice in the research community.
         Plagiarism strikes at the heart of research integrity and is an unacceptable practice within the
         research community. We consider the subject's action to be a significant departure from NSF's
         expectation of "adherence to the rules of proper scholarship and attribution" for two reasons: 1)
         the total amount of plagiarized text, at least 165 copied lines (representing about 4 pages of text)
         taken fiom two separate, previously awarded NSF proposals is considerable; 2) the subject's
         Proposal 1, containing about 95 lines of copied text was h d e d by NSF, funds which could have
         been used to support another scientist. Therefore, we believe the level of misconduct was
         serious.

                                                    Evidence o f a Pattern

         The subject submitted two proposals several years apart, each of which contained significant
         copied text from previously awarded NSF proposals. This suggests that, given what we have
         observed in this case, the subject's actions were a part of a pattern.

         43   45 CFR 9 689.3(b).
                                             Impact on the research record

    The Institution declined the award (Proposal 1). No recent NSF funds have been received by the
    subjecte4 From the evidence we have reviewed in this case, there is no impact on the research
    record as a result of the plagiarism in the subject's submitted NSF proposals.

                                                     Recommendation

    Based on the evidence, OIG recommends that NSF:

                          send a letter of reprimand to the subject informing him that NSF has made a
                          finding of research misconduct;

                          debar the subject fiom receiving federal funds for a period of 2 years commencing
                    . -   on the date of NSF's finding of research misconduct;

                          require the subject to certify that proposals he submits to NSF do not contain
                          plagiarized, falsified, or fabricated material for 3 years after the debarment period;
'   I


                          require that the subject submit assurances by a responsible official of his
                          employer that any proposals submitted by the subject to NSF do not contain
                          plagiarized, falsified, or fabricated material for 3 years after the debarment period;

                          prohibit the subject fiom reviewing NSF proposals for a period of 2 years,
                          concurrent with the 2-year debarment period;

                          and

                    0     require the subject to complete zi course in research ethics within one year of the
                          final disposition of the case.

     The subject's certifications and proof of the completion of an ethics course should be sent to the
    'Associate Inspector General for Investigations for retention in OIG's confidential file on this
     matter.




                                                              .   .

        44 Tab H, subject's NSF proposal submission history, shows his last NSF award was DUE-9351495, entitled
        'Turchase of an FTIR System for Chemistry," with an effective date of August 8, 1993.
                                      NATIONALSCIENCE FOUNDATION
                                          4201 WILSON BOULEVARD
                                         ARLINGTON, VIRGINIA 22230


                                              MAR     9 2007


         OFFICE OF THE
        DEPUTY DIRECTOR




    CERTIFIED MAIL -RETURN -RECEIPTREQUESTED
.

    ~ rJerry
         . P. Jasinski




    '   .   Re: Debarment

    Dear Dr. Jasinski:

    On January 1 1,2007, the National Science Foundation ("NSF") sent you a Notice of Proposed
    Debarment in which NSF proposed to debar you from directly or indirectly obtaining the benefits
    of Federal grants for a period of two years. The Notice sets forth in detail the circumstances
    giving rise to NSF's decision to propose your debarment. Specifically, NSF indicated in the
    Notice that the proposed debarment is based upon your submission of a proposal to NSF that
    contained plagiarized text. In that Notice, NSF provided you with thirty days to respond to the
    proposed debarment.

    Over thirty days have elapsed and NSF has not received a response. Accordingly, you are
    debarred until January 11,2009. Debarment precludes you from receiving Federal financial and
    non-financial assistance and benefits under non-procurement Federal programs and activities
    unless an agency head or authorized designee makes a determination to grant an exception in
    accordance with 45 CFR Section 620.215. ~on-procurementtransactions include grants,
    cooperative agreements, scholarships, fellowships, contracts of assistance, loans, loan guarantees,
    subsidies, insurance, payments for specified use, and donation agreements.

    In addition, you are prohibited from receiving Federal contracts or approved subcontracts under
    the Federal Acquisition Regulations ("FAR") at 48 CFR Subpart 9.4 for the period of tliis              .   .

    debarment. 45' CFR Section 620.1 l.O(c). During the debarment period, you may not have
    supervisory responsibility, primary management, substantive control over, or critical influence   .,
on, a grant, contract, or cooperative agreement with any agency of the Executive Branch of the
Federal Government.

Lastly, please note that, in the Notice of Proposed Debarment, NSF also took the following
actions against you, which continue to remain in effect:

       For three years from the end of your debarment period, you are required to certify that
       proposals or reports you submit to NSF do not contain plagiarized, falsified, or fabricated
       material. Such certifications should be sent to the OIG, 4201 Wilson Boulevard,.
       Arlington, VA 22230.

       For three years fi-omthe end of your debarment period, you are required to submit
       assurances by a responsible official of your employer that any proposals or reports you
       submit to NSF do not contain plagiarized, falsified, or fabricated material. Such
       assurances should be sent to the OIG.

       You are prohibited fi-om serving as an NSF reviewer, advisor, or consultant through .
       December 31,2008.

       You are required to complete an ethics training course on plagiarism by December 3 1,
       2007. You must certify in writing to the OIG that such training has been completed
       before you will be permitted to submit any M e r grant proposals for Federal funding.


If you have any questions regarding the foregoing, please contact          Assistant General
Counsel, National Science Foundation, Office of the General Counsel, 4201 Wilson Boulevard,
Room 1265, Arlington, Virginia, 22230.



                                                     Sincerely,                            .   .




                                                     Kathie L. Olsen
                                                     Deputy Director
